No. 20-5082

In the Supreme Court of the United States
JOE EDWARD JOHNSON, Petitioner,
v.
STATE OF CALIFORNIA, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition contains 7,861 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: October 16, 2020
Respectfully submitted,
XAVIER BECERRA
Attorney General of California
/s/ Clara M. Levers
CLARA M. LEVERS
Deputy Attorney General
Counsel of Record
Counsel for Respondent

